TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Improvements to the Volunteer Program
                      Are Producing Positive Results, but
                     Further Improvements Are Needed to
                        the Quality Assurance Process



                                       September 3, 2010

                              Reference Number: 2010-40-109




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                     HIGHLIGHTS


IMPROVEMENTS TO THE VOLUNTEER                           Resources could be saved by reducing or
PROGRAM ARE PRODUCING POSITIVE                          eliminating paper reference materials when they
RESULTS, BUT FURTHER                                    are available electronically. Each year the IRS
IMPROVEMENTS ARE NEEDED TO THE                          spends more than $600,000 ($3 million
                                                        projected over 5 years) to provide paper
QUALITY ASSURANCE PROCESS
                                                        reference materials to volunteers, even though
                                                        the tax preparation software it provides has the
Highlights                                              same reference material.
                                                        Improvements are needed to the quality
Final Report issued on September 3,                     assurance process used to monitor program
2010                                                    effectiveness. Results show that quality review
                                                        procedures were not consistently followed and
Highlights of Reference Number: 2010-40-109             did not always conform to applicable guidelines.
to the Internal Revenue Service Commissioner            A random sample of 41 of the 184 Post Reviews
for the Wage and Investment Division.                   showed that 9 (22 percent) review files lacked
                                                        sufficient taxpayer information to support the
IMPACT ON TAXPAYERS                                     Reviewers’ conclusions.
The Volunteer Program plays an important role           WHAT TIGTA RECOMMENDED
in achieving the Internal Revenue Service’s
(IRS) goal of improving taxpayer service and            TIGTA recommended that the IRS: 1) revise the
facilitating participation in the tax system. It        site visit checksheet to ensure volunteers and
provides no-cost Federal tax return preparation         site coordinators understand the process and
and electronic filing directed toward underserved       required signs are posted; 2) ensure referrals
segments of individual taxpayers, including             reporting improper activities are properly
low-income to moderate-income, elderly,                 documented, investigated, and resolved;
disabled, and limited-English-proficient                3) develop an initiative to help reduce or
taxpayers.                                              eliminate paper products at Volunteer Program
                                                        sites; and 4) revise the managerial checksheet
WHY TIGTA DID THE AUDIT                                 used for the Quality Statistical Sample Reviews
                                                        to include a focus on tax return selection and
The audit was a followup to prior TIGTA reviews
                                                        documentation standards.
to determine whether taxpayers receive quality
service, including the accurate preparation of          The IRS agreed with the recommendations and
their income tax returns, when visiting Volunteer       plans to revise the Field Site Visit Checksheet to
Program tax preparation sites.                          ensure volunteers and site coordinators
                                                        understand the process and that required signs
WHAT TIGTA FOUND                                        are posted. It will develop procedures to ensure
The accuracy rates for tax returns prepared at          referrals reporting improper activity are
Volunteer Program sites increased sharply from          documented, investigated, and resolved, and is
the 2009 Filing Season. The increase is                 currently developing strategies to reduce
attributed to the increase in volunteer use of the      volunteer tax return preparers’ reliance on paper
Intake/Interview and Quality Review Sheet               products. It also plans to revise the managerial
(Form 13614-C), increased and improved                  checksheet to include a focus on tax return
training, and increased oversight.                      selection and documentation standards.

During January 2010, the IRS implemented a
process to help ensure that willful acts of fraud
will not occur at Volunteer Program sites.
However, not all sites were aware of the
procedures or obtained the proper signage used
to alert taxpayers of the process to report
improper activity.
                                                DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                              September 3, 2010


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                        Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – Improvements to the Volunteer Program Are
                              Producing Positive Results, but Further Improvements Are Needed to
                              the Quality Assurance Process (Audit # 201040018)

 This report presents the results of our review to determine whether taxpayers receive quality
 service, including the accurate preparation of their income tax returns, when visiting Internal
 Revenue Service Volunteer Program 1 sites. This audit is a followup to prior Treasury Inspector
 General for Tax Administration reviews and is part of our Fiscal Year 2010 Annual Audit Plan. 2
 The audit addresses the major management challenge of Providing Quality Taxpayer Service
 Operations.
 Management’s complete response to the draft report is included in Appendix IX.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. Please contact me at (202) 622-6510 if you have questions or
 Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
 Services), at (202) 622-5916.




 1
   Includes the Volunteer Income Tax Assistance and Tax Counseling for the Elderly Programs. During this review,
 the Tax Counseling for the Elderly sites we visited were those sponsored by the AARP (formerly the American
 Association of Retired Persons).
 2
   See Appendix VIII for a list of these prior reports.
                                  Improvements to the Volunteer Program
                          Are Producing Positive Results, but Further Improvements
                                Are Needed to the Quality Assurance Process




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 6
          The Volunteer Program Accuracy Rate Has Increased Significantly...........Page 6
          Improvements Are Needed to Ensure Taxpayers Are
          Aware of How to Report Improper Activity Occurring
          at Volunteer Program Sites ...........................................................................Page 7
                    Recommendations 1 and 2: ..............................................Page 9

          Resources Could Be Saved by Reducing or Eliminating
          Paper Reference Materials When They Are Available Electronically .........Page 9
                    Recommendation 3:........................................................Page 11

          Improvements Are Needed to the Quality Assurance
          Process Used to Monitor Program Effectiveness..........................................Page 12
                    Recommendation 4:........................................................Page 15


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 17
          Appendix II – Major Contributors to This Report ........................................Page 18
          Appendix III – Report Distribution List .......................................................Page 19
          Appendix IV – Outcome Measure ................................................................Page 20
          Appendix V – Cities and States Visited to Have Tax Returns Prepared ......Page 21
          Appendix VI – Cities and States Visited to Observe Reviewers ..................Page 22
          Appendix VII – General Characteristics of Tax Year 2008 Tax Returns
          Prepared by the Volunteer Program..............................................................Page 23
          Appendix VIII – Treasury Inspector General for Tax Administration
          Audit Reports on the Volunteer Tax Return Preparation Program...............Page 24
          Appendix IX – Management’s Response to the Draft Report ......................Page 25
                            Improvements to the Volunteer Program
                    Are Producing Positive Results, but Further Improvements
                          Are Needed to the Quality Assurance Process




                                  Abbreviations

e-filed, e-filing          Electronically file(d); electronic filing
IRS                        Internal Revenue Service
QSS                        Quality Statistical Sample
SPEC                       Stakeholder Partnership, Education, and Communications
TCE                        Tax Counseling for the Elderly
VITA                       Volunteer Income Tax Assistance
                               Improvements to the Volunteer Program
                       Are Producing Positive Results, but Further Improvements
                             Are Needed to the Quality Assurance Process




                                             Background

The Volunteer Program plays an important role in achievement of the Internal Revenue Service’s
(IRS) goal of improving taxpayer service and facilitating participation in the tax system. It
provides no-cost Federal tax return preparation and electronic filing (e-filing) directed toward
underserved segments of individual taxpayers, including low-income to moderate-income,
elderly, disabled, and limited-English-proficient taxpayers. It includes sites operated in
partnership with the military and with various community-based organizations. 1 The Volunteer
Program is comprised of the Volunteer Income Tax
Assistance (VITA) Program, the Tax Counseling for the                 Volunteers play an
Elderly (TCE) Program, and the VITA Grant Program.                increasingly important role
                                                                             in helping the IRS achieve
The VITA Program was originated in 1969 due to                                  its goal of improving
enactment of the Tax Reform Act of 1969 2 and an increased                      taxpayer service and
emphasis on taxpayer education programs. The IRS has                          facilitating participation
placed continual emphasis on expanding the VITA Program                           in the tax system.
through increased recruitment of social service, nonprofit,
corporate, financial, educational, and government
organizations; involvement of the military on a national
level; and expansion of assistance provided to the
limited-English-proficient community.
The TCE Program began with the Revenue Act of 1978 3
that authorized the IRS to enter into agreements with private or nongovernmental, public,
nonprofit agencies and organizations to provide training and technical assistance to volunteers
who provide free tax counseling and assistance to elderly individuals in the preparation of their
Federal income tax returns. The law authorizes an appropriation of special funds, in the form of
grants, to provide tax assistance to persons age 60 and older. The IRS receives the funds as a
line item in the budget appropriation. The total funds are distributed to the sponsors 4 for their
expenses.
The 2009 Filing Season 5 was the first filing season that the IRS granted funds for the VITA
Grant Program. Under the VITA Grant Program, 111 grantees were awarded $8 million for the
2009 Filing Season and 147 grantees were awarded $7.44 million in matching grants for the


1
  Some community-based Volunteer Program sites are located in buildings occupied by one or more IRS offices.
2
  Pub. L. No. 91-172, 83 Stat. 487 (codified as amended in scattered sections of 26 U.S.C. and 42 U.S.C.).
3
  Pub. L. No. 95-600, 92 Stat. 2810.
4
  A sponsor would be an entity similar to the AARP (formerly the American Association of Retired Persons).
5
  The filing season is the period from January through mid-April when most individual income tax returns are filed.
                                                                                                            Page 1
                                 Improvements to the Volunteer Program
                         Are Producing Positive Results, but Further Improvements
                               Are Needed to the Quality Assurance Process



2010 Filing Season to extend services to underserved populations in hard-to-reach areas, both
urban and nonurban. The grants are to be used to increase the capacity to file tax returns
electronically and enhance training of volunteers at VITA sites.
For the 2009 Filing Season, more than 82,000 volunteers staffed a total of 12,160 VITA and
TCE sites. Volunteers prepared approximately 1.8 million individual income tax returns at
VITA sites and approximately 1.3 million at TCE sites. Figure 1 provides key production data
for the 2007 through 2009 Filing Seasons.
                               Figure 1: Key VITA/TCE Production Data
                                  for the 2007 – 2009 Filing Seasons
                                     2007 Filing           2008 Filing         2009 Filing      Percentage
                                      Season                Season              Season           Change*
         VITA
         Paper                              146,383              247,828             145,410         -41.33%
         E-Filed                          1,077,843            1,339,023           1,608,489          20.12%

         Total VITA Tax Returns           1,224,226            1,586,851           1,753,899          10.53%
         Total VITA Sites                     4,474                4,991               6,468          29.59%
         Total VITA Volunteers               43,415               46,610              47,964            2.9%
         TCE
         Paper                              253,632              326,555             111,263         -65.93%
         E-Filed                          1,144,664            1,563,879           1,165,828         -25.45%
         Total TCE Tax Returns            1,398,296            1,890,434           1,277,091         -32.44%
         Number of Sites                      7,448                6,849               5,692         -16.89%
         Number of Volunteers                33,204               32,233              34,689           7.62%
         TOTALS
         Tax Returns                      2,622,522            3,477,285           3,030,990         -12.83%
         Volunteers                          76,619               78,843              82,653           4.83%
         Sites                               11,922               11,840              12,160           2.70%
        * = Percentage change is calculated using the change from the 2008 Filing Season to the 2009 Filing Season.
        Source: IRS management information system containing 2007 through 2009 Filing Seasons information.

During the 2009 Filing Season, taxpayer demand for volunteer tax services decreased almost
13 percent over the approximately 3.5 million volunteer-prepared tax returns filed during the
2008 Filing Season. The key factor of this decreased activity was the passage of the Economic
Stimulus Act of 2008. 6 For the 2008 Filing Season, the IRS reached out to taxpayers with
special emphasis on Social Security and Veterans Administration benefits recipients who had no
tax filing requirements.




6
    Pub. L. No. 110-185, 122 Stat. 613.
                                                                                                             Page 2
                               Improvements to the Volunteer Program
                       Are Producing Positive Results, but Further Improvements
                             Are Needed to the Quality Assurance Process



This audit included an assessment of tax returns prepared at community-based VITA sites and
TCE/AARP-sponsored 7 sites. Figure 2 provides a breakdown of the Volunteer Program and the
percentage of tax returns prepared during the 2009 Filing Season.
                     Figure 2: Percent of Tax Returns Prepared at the
                  Volunteer Program Sites During the 2009 Filing Season




    Source: Our analysis of data retrieved from the IRS management information system containing Tax Year 2008
    filing information. No Program Identified = at the time of our data analysis, some data had invalid site codes
    that could not be matched to an existing Program.

The IRS Stakeholder Partnership, Education, and Communications (SPEC) function is
responsible for providing oversight for the Volunteer Program, which includes determining
policies and procedures, developing products and training material, and monitoring and
managing Volunteer Program activity. The SPEC function’s concept of operations includes
looking for opportunities to assist third parties to help taxpayers understand and meet their tax
obligations by promoting collaboration among tax practitioners, commercial preparers, and
community-based partners to support the Volunteer Program.



7
 Throughout the remainder of this report, the abbreviation “TCE” is used in reference to TCE sites sponsored by the
AARP.
                                                                                                           Page 3
                                  Improvements to the Volunteer Program
                          Are Producing Positive Results, but Further Improvements
                                Are Needed to the Quality Assurance Process



Tax scenarios used by auditors reflected characteristics of taxpayers who seek
assistance from the Volunteer Program
We designed three scenarios for auditors to use as they posed as taxpayers having tax returns
prepared by volunteers. The scenarios were developed to use characteristics of taxpayers who
visit Volunteer Program sites to have a tax return prepared and tax law topics that assessed the
volunteers’ use of the tools the SPEC function created to ensure that accurate tax returns are
prepared.
       •   Two scenarios included tax topics related to five of the six credits taxpayers most often
           claimed on the Tax Year 2008 tax returns prepared by community-based VITA and TCE
           sites. The dollar amounts of these 5 credits represented about 44 percent (approximately
           $1.14 billion) of the approximately $2.62 billion in refunds shown on the tax returns for
           these taxpayers. Taxpayers whose tax returns included 1 or more of the 5 credits in our
           scenarios accounted for 753,650 (29 percent) of the 2,571,821 Tax Year 2008 tax returns
           prepared. Scenarios 1 and 2 have been used, with minimal revisions, since our first audit
           of the Volunteer Program in the 2004 Filing Season. 8
       •   One scenario was added for the 2010 Filing Season review to assess volunteers’ handling
           of newly enacted tax laws.
Scenario 1 – The taxpayer was single, had never been married, and lived with his or her sister.
The taxpayer had 1 child, age 7, who lived with the taxpayer in the home of the taxpayer’s sister
during school vacations, including the months of June and July, 3 months a year. The child lived
with the other parent during the school year. Wages reported on the 2009 Wage and Tax
Statement (Form W-2) totaled $16,435. The taxpayer received a 2009 Interest Income
(Form 1099-INT) totaling $26.35. The taxpayer attended college part-time, and the cost was
paid by the taxpayer’s sister.
An accurately prepared tax return would result in the taxpayer receiving a refund of $438. The
tax return preparer would have correctly determined that the taxpayer’s filing status was Single.
Because the taxpayer did not provide more than one-half of the support for the child, he or she
could not claim the child as a dependent for Child Tax Credit purposes. The Earned Income Tax
Credit would not be available to the taxpayer because earned income exceeded the maximum
allowable amount and because the child did not live with the taxpayer for more than one-half of
the year. The taxpayer was eligible for a $400 Making Work Pay Credit.
Scenario 2 – The taxpayer was divorced and lived with his or her 8-year-old child. The taxpayer
had the same job working as a clerk throughout Calendar Year 2009. Wages reported on the
2009 Form W-2 totaled $28,732. The taxpayer was paid bi-weekly and contributed to a
401(k) retirement plan. The taxpayer received a 2009 Form 1099-INT totaling $42.13, received


8
    See Appendix VIII for a list of our prior reports.
                                                                                              Page 4
                            Improvements to the Volunteer Program
                    Are Producing Positive Results, but Further Improvements
                          Are Needed to the Quality Assurance Process



$400 a month for child support, had dependent care expenses totaling $1,352, and contributed
$1,253 to a 401(k) retirement plan.
An accurately prepared tax return would result in the taxpayer receiving a refund of $3,096. The
tax return preparer would have correctly determined that the taxpayer’s filing status was Head of
Household and the dependency exemption could be claimed. In addition, the taxpayer qualified
for an Earned Income Tax Credit of $1,069, a Child Tax Credit of $867, an Additional Child Tax
Credit of $133, a Child and Dependent Care Credit of $379, and a Retirement Savings
Contributions Credit of $125. The taxpayer was eligible for a $400 Making Work Pay Credit.
Scenario 3 – The taxpayer was single with no dependents and shared an apartment with a friend.
The taxpayer was employed as a clerk and had Form W-2 wages in the amount of $18,435 for
Tax Year 2009. In June 2009, the taxpayer purchased a new car for $15,490 and paid sales tax
of $1,084.30. A Form 1099-INT for Tax Year 2009 totaling $63.08 was also received by the
taxpayer.
A correctly prepared tax return would result in the taxpayer receiving a refund of $1,938. The
preparer would have correctly determined that the taxpayer’s filing status was Single. The
taxpayer would be entitled to receive an increased Standard Deduction amount of $6,784 based
on the sales tax paid on the purchase of a new vehicle. The taxpayer was eligible for a
$400 Making Work Pay Credit.
This review was performed at the IRS SPEC function in the Wage and Investment Division
Headquarters in Atlanta, Georgia, during the period December 2009 through June 2010. In
addition, from February through April 2010, Treasury Inspector General for Tax Administration
auditors performed 39 anonymous visits (called shopping) and had 39 tax returns prepared at
39 judgmentally selected Volunteer Program sites located in 13 States. Appendix V provides a
list of the 13 States and the specific cities where the sites were located. An auditor also observed
11 Quality Statistical Sample Reviewers as they performed return reviews in 11 States.
Appendix VI provides a listing of the States and specific cities visited.
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




                                                                                             Page 5
                             Improvements to the Volunteer Program
                     Are Producing Positive Results, but Further Improvements
                           Are Needed to the Quality Assurance Process




                                    Results of Review

The Volunteer Program Accuracy Rate Has Increased Significantly
The accuracy rates for tax returns prepared at Volunteer Program sites increased sharply from the
2009 Filing Season. Of the 39 tax returns prepared for our auditors, 35 (90 percent) were
prepared correctly. Figure 3 shows the accuracy rates of tax returns prepared for our auditors for
the 2004 through 2010 Filing Seasons.
                        Figure 3: Overall Tax Return Accuracy Rates
                             for the 2004 – 2010 Filing Seasons




Source: Tax returns prepared for our auditors by volunteers for the 2004 – 2010 Filing Seasons.

The IRS took numerous actions to increase the accuracy of tax returns prepared by volunteers;
for example, it:
   •   Mandated that all Volunteer Program sites that received grant funding use the
       Intake/Interview and Quality Review Sheet (Form 13614-C). The Form 13614-C guides
       volunteer tax return preparers through taxpayer interviews and allows them to gather all
       necessary information to prepare accurate tax returns.


                                                                                                  Page 6
                            Improvements to the Volunteer Program
                    Are Producing Positive Results, but Further Improvements
                          Are Needed to the Quality Assurance Process



   •    Increased oversight of the Volunteer Program by combining tax return quality assurance
        reviews with two additional SPEC function oversight visits. A combination of these
        visits resulted in SPEC function personnel visiting 5,780 Volunteer Program sites,
        representing 48 percent of the more than 12,000 Volunteer Program sites.
   •    Increased requirements to ensure the volunteers are certified that they have the
        knowledge and skills necessary to prepare quality tax returns.
   •    Provided new filing season readiness training methods through a digital video disk,
        accompanying text, and a self-directed learning module.
The increase in accuracy can also be attributed to the significant increase in the volunteer use of
the Form 13614-C. Only 2 (5 percent) of the 39 tax returns prepared for auditors during the
2010 Filing Season were prepared without the volunteers using the Form 13164-C. In the
2008 Filing Season review, 33 percent of the volunteers did not use the Form 13164-C, and
22 percent did not use it in the 2009 Filing Season review.

Improvements Are Needed to Ensure Taxpayers Are Aware of How to
Report Improper Activity Occurring at Volunteer Program Sites
During January 2010, the SPEC function implemented a process to help ensure that willful acts
of fraud will not occur at Volunteer Program sites. However, because of the short time period to
develop new procedures and implement the process in the Volunteer Program sites, not all sites
were aware of the procedures and/or obtained the proper signage used to alert taxpayers of the
process to report improper activity. Therefore, there was no assurance that all improper
activities, if any, were detected and reported to the IRS.
In September 2009, the IRS ended a partnership with an organization that had received national
attention about allegations of questionable activity. Though the activities were not related to the
Volunteer Program, the IRS stated that it is “absolutely critical that taxpayers have trust in our
Volunteer Income Tax Assistance program partners.” The IRS Deputy Commissioner asked the
SPEC function to improve processes that are intended to provide reasonable assurance that
unethical acts do not occur at Volunteer Program sites. In response, the SPEC function initiated
a team to evaluate its current and planned processes to determine what actions were necessary.
Within 3 months, the team developed and published products to be distributed to Volunteer
Program sites to alert taxpayers on how to report improper activities.
The SPEC function has two publications to alert taxpayers on how to report problems.
    •   VITA/TCE Free Tax Preparation Programs (Publication 4836). It is an informational
        document advising taxpayers of how to report problems encountered at a Volunteer
        Program site. It is a downloadable document that can be printed onsite and posted. It
        includes an email address for reporting problems. It does not, however, include a
        toll-free telephone number for those taxpayers who do not have access to the Internet.
                                                                                             Page 7
                               Improvements to the Volunteer Program
                       Are Producing Positive Results, but Further Improvements
                             Are Needed to the Quality Assurance Process



    •    F13614-C Volunteer Poster (Publication 4807). It is a poster size image of
         Form 13614-C, with instructions to aid taxpayers in filling out the Intake/Interview Sheet
         and Quality Review Sheet.
All Volunteer Program sites are required to either display Publication 4836 or otherwise make it
visible so taxpayers are aware of the opportunity to
make a referral to the IRS. Of the 39 Volunteer
Program sites auditors visited to have tax returns           Of the 39 Volunteer Program sites
prepared, 35 (90 percent) lacked the required                visited, 35 (90 percent) lacked the
                                                           required signage to alert taxpayers of
signage. Of the 35 sites with no signage,                 how to report a problem encountered at
32 (91 percent) site coordinators stated they were not            a Volunteer Program site.
aware of the signage or how to obtain it. In addition,
of the 39 sites visited, 32 (82 percent) had not
received the F13614-C Volunteer Poster.
Territory offices 9 are responsible for ensuring all sites are aware of these new products, including
mailing the F13614-C Volunteer Poster to each site. SPEC function employees make visits to
Volunteer Program sites and discuss a variety of key issues, including:
    •   Fraud awareness and prevention.
    •   Adherence to quality site requirements.
    •   Site and data security.
    •   Financial education and asset-building opportunities.
    •   Key tax law issues.
SPEC function employees completed 3,521 field site visits during the 2010 Filing Season.
Nevertheless, the checksheet used by SPEC function employees during site visits does not
include a check for signage. Since the publications are the main avenue through which the IRS
is educating taxpayers who visit Volunteer Program sites, the checksheet should be revised to
document that the site is displaying the proper signage.

Controls over taxpayer referrals need improvement
Using the email address provided on Publication 4836, on March 21, 2010, an auditor posed as a
taxpayer and sent an email reporting a problem at a Volunteer Program site. The auditor
reported that another taxpayer at the site stated that he had received a larger refund because the
volunteer preparer “helped him out.” The SPEC function had no record of receiving the referral.
The IRS reported that an email mailbox was not correctly set up for analysts to review.

9
 The SPEC function is organized geographically into 4 Areas and 37 Territories. Directors are responsible for the
Areas and managers for the Territories.
                                                                                                           Page 8
                            Improvements to the Volunteer Program
                    Are Producing Positive Results, but Further Improvements
                          Are Needed to the Quality Assurance Process



Once an email is received, the SPEC function requires it to be reviewed and a determination
made on whether it warrants further review. If the allegations do not warrant an additional
review, a copy of the referral is sent to the appropriate Territory Manager for his or her action. If
the allegation appears to have merit and an onsite referral review is warranted, the Territory
Manager and Area Director are both notified prior to the onsite review. Immediate action will be
taken if the allegations in a referral are valid.
This was the first year the SPEC function provided the publications, required the signage be
displayed at the Volunteer sites, and established the referral process. The SPEC function
generally finalizes all procedures and processes by August of every year, and communicates
them to the volunteer months before the filing season begins. The short turnaround time to
develop and implement this new process did not allow the SPEC function time to test the process
and ensure sufficient controls were in place.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 1: Revise the site visit checksheet to ensure volunteers and site
coordinators understand the process and required signs are posted.
       Management’s Response: The IRS agreed with this recommendation and will revise
       the Field Site Visit Checksheet to ensure volunteers and site coordinators understand the
       process and required signs are posted.
Recommendation 2: Ensure referrals reporting improper activities at Volunteer Program
sites are properly documented, investigated, and resolved.
       Management’s Response: The IRS agreed with this recommendation and will
       develop procedures to ensure referrals reporting improper activities at Volunteer Program
       sites are properly documented, investigated, and resolved. All referrals will be reviewed
       by a team comprised of management and quality analysts.

Resources Could Be Saved by Reducing or Eliminating Paper
Reference Materials When They Are Available Electronically
In preparation of the 2009 Filing Season, the SPEC function expended
$619,767 to produce and ship paper reference materials ($3,098,835
projected over 5 years) used by volunteers in the preparation of tax
returns. It also provided electronic versions of the same reference
publications in the tax preparation software it purchased and supplied to
Volunteer Program sites. In Fiscal Year 2010, the SPEC function


                                                                                              Page 9
                                 Improvements to the Volunteer Program
                         Are Producing Positive Results, but Further Improvements
                               Are Needed to the Quality Assurance Process




purchased 10,431 software packages and issued 9,965 to sites at a cost of $4,820,060.79
($462.09 per package).
The IRS surveys its partners to determine their preferred method for receiving (electronic or
paper) reference materials. However, it does not aggressively promote electronic reference
materials or ask the partners if they use the paper products or could eliminate or reduce the paper
products. The SPEC function also does not monitor volunteers’ use of these products.
Each volunteer is provided, or each workstation has available, a copy of Your Federal Income
Tax for Individuals (Publication 17) and Volunteer Resource Guide (Publication 4012).
Publication 4012 is a training tool and site reference guide and is a critical component of the
SPEC function’s process-based training delivery approach. It is used in conjunction with both
the electronic and printed course materials and is meant to provide volunteers “quick and easy”
access to tax law and tax software guidance. The information in the publication (tax law in the
form of interview tips, narratives, flowcharts, diagrams, etc.) is designed to assist volunteers in
their interactions with taxpayers during the screening and interview process. It also contains
guidance for entering data into tax return preparation software and e-file guidance—features
designed to contribute to preparing an accurate tax return.
Of the 39 sites visited by auditors during the 2010 Filing Season, 31 (79 percent) had the paper
versions of the reference materials at their desks. However, volunteers were observed using the
reference materials in only 12 (31 percent) of the site visits. Figure 4 shows frequency of
volunteer use of reference materials when preparing tax returns for auditors during the
2008 through 2010 Filing Seasons.
                              Figure 4: Reference Material Usage Rates
                               During the 2008 – 2010 Filing Seasons 10

                           Did the Volunteer                      Did the Volunteer Use
                          Use Publication 17?                       Publication 4012?
               Filing                                Usage                                      Usage
              Season         Yes           No         Rate            Yes            No         Rates

                2010          6            33        15.38%           10             29        25.64%

                2009          0            48         0.00%            4             44         8.33%

                2008          1            35         2.78%           10             26        27.78%

            Source: Tax returns prepared for auditors by volunteers during the 2008 – 2010 Filing Seasons.




10
     Some volunteers used both Publication 17 and Publication 4012.
                                                                                                             Page 10
                           Improvements to the Volunteer Program
                   Are Producing Positive Results, but Further Improvements
                         Are Needed to the Quality Assurance Process



Not using a reference guide when preparing a tax return does not always suggest that it was
overlooked as a quality assurance tool, but instead can present a situation for which the volunteer
believed the reference material was not needed due to the relatively low complexity level of the
tax return being prepared.
The SPEC function Education and Product Development staff produces Publication 4012 and
includes it in the Volunteer Program training kits. Publication 17 is produced and published by
Media and Publication function Tax Forms and Publications Division. For Tax Year 2009, the
SPEC function ordered approximately 143,000 Publications 17. Figure 5 provides production
and annual costs relative to Publications 4012 and 17.
                             Figure 5: Reference Material Costs
                                 for the 2009 Filing Season

                                                    Volume        Total Cost

                   Publication 17                   143,000        $111,980
                   Publication 4012                 177,300        $507,787
                   Total                            320,300        $619,767
                   Source: IRS Publishing Services Data System.

Reducing the number of or eliminating these publications at each site would result in significant
cost savings. Versions of these publications are already available on the tax software provided to
volunteers by the SPEC function.

Recommendation
Recommendation 3: The Commissioner, Wage and Investment Division, should develop an
initiative to help reduce or eliminate paper products at Volunteer Program sites.
       Management’s Response: The IRS agreed with this recommendation. During
       Fiscal Year 2010, the SPEC function formed a team to address these concerns. The
       Wage and Investment Division, through the SPEC function, is currently developing
       strategies designed to reduce volunteer tax return preparers’ reliance on paper products.
       This initiative includes a phased-in approach emphasizing the use of electronic versions
       of Publication 4012 and Publication 17.
       In addition, to reduce the number of these publications that are ordered by the SPEC
       function and its partners, a self-directed learning module on forecasting and ordering, as
       well as a training options plan, will be included in the strategy.




                                                                                           Page 11
                           Improvements to the Volunteer Program
                   Are Producing Positive Results, but Further Improvements
                         Are Needed to the Quality Assurance Process



Improvements Are Needed to the Quality Assurance Process Used to
Monitor Program Effectiveness
Limited testing at 11 selected volunteer sites showed that IRS quality reviewers did not
consistently follow procedures to ensure tax returns were randomly selected and all tax return
information was accurate. In addition, the post-review quality assurance process did not
effectively identify and address errors that affect the credibility of the overall accuracy rate.
Although Quality Statistical Sample (QSS) Reviews were not supported by sufficient taxpayer
information, QSS Post Reviewers considered tax returns to be correct.
The IRS is continuing to build on the quality review process, which has evolved into a three-tier
process that includes:
   1. A 100 Percent Quality Review at the volunteer sites of every tax return before it is filed.
      These reviews are generally conducted by a designated quality reviewer using a quality
      review tool designed to ensure the accuracy of the taxpayer’s return.
   2. QSS Reviews. Starting with the 2009 Filing Season, the IRS began relying on a specially
      trained cadre of 18 tax specialists to visit a statistically valid sample of Volunteer
      Program sites to review a sample of tax returns for accuracy. During a QSS Review,
      cadre members randomly select for review three tax returns that have not yet been signed
      by the taxpayers. Tax return accuracy is determined by verifying the taxpayer’s identity
      and comparing the completed tax return to the completed Form 13614-C and the
      taxpayer’s supporting documents.
   3. Post Reviews of selected QSS Reviews. Using tax returns from QSS Reviews, analysts
      ensure that the case files provide adequate documentation to make an accuracy
      assessment and validate that the tax returns were prepared correctly. Reviews are
      selected by the Statistics of Income function using a random sample of all QSS Reviews
      planned for the 2010 Filing Season.
During the 2009 Filing Season, SPEC function employees performed anonymous shopping visits
to volunteer sites to have a judgmental sample of tax returns completed and evaluated for
accuracy. Starting with the 2010 Filing Season, the SPEC function decided to discontinue
accuracy reviews where IRS employees anonymously shop the Volunteer Program sites to have
tax returns prepared.

QSS Reviewers did not always follow procedures
The SPEC function conducted 745 of the 855 planned QSS Reviews during the 2010 Filing
Season and determined that 627 (84 percent) of the tax returns were correct, up from 79 percent
reported for the 2009 Filing Season. The QSS Reviewer uses the QSS Return Review Sheet
(Form 6729-R) to guide and document the accuracy assessment. See Figure 6 for the QSS
process.

                                                                                           Page 12
                                Improvements to the Volunteer Program
                        Are Producing Positive Results, but Further Improvements
                              Are Needed to the Quality Assurance Process



                                Figure 6: QSS Return Review Process

                                  To the Site Coordinator,
                                       the Reviewer:                    Review Process

                                   Expresses appreciation for      Explains to the taxpayer the
                                   participation in the            purpose of the review and asks       QSS
              QSS Reviewer         Volunteer Program.              permission to review the tax
              enters the site                                                                          Review
                                   Explains tax return review      return.
  Start        and asks for        process and vaddresses any      If the intake/interview sheet is    process
                 the site          concerns.                       missing, not completed, or         continued
               coordinator.        Selects next available tax      unapproved, hold on to              on next
                                   return.                         completed tax return and secure      page.
                                   Explains process of selecting   the completed approved intake/
                                   next completed tax return       interview sheet from site
                                   until three tax returns are     coordinator.
                                   reviewed.




Source: The SPEC function’s Filing Season 2010 QSS Centralized Cadre Site and Return Review training manual.

Unlike when auditors pose as a taxpayer and visit a volunteer tax preparation site to have a tax
return prepared, during the QSS Review, volunteers are aware that IRS staff are onsite to review
the tax returns they are preparing. Knowing the Reviewer is onsite could lead volunteers to be
more quality conscious and more apt to adhere to quality processes than they would have been
otherwise. Consequently, the QSS Reviewer may not be obtaining a reliable perspective of the
tax return preparation operations. This will remain a challenge since the IRS would need
significant resources to ensure that the Reviewers are anonymous. However, it is only one of
three reviews in the three-tier quality review process.




                                                                                                            Page 13
                                 Improvements to the Volunteer Program
                         Are Producing Positive Results, but Further Improvements
                               Are Needed to the Quality Assurance Process



QSS Reviewers did not ensure that the selections of tax returns for review were random
The methods followed by QSS Reviewers to select tax returns for review at each site were not
consistent and generally did not ensure that each tax return was randomly selected. At 5 of
11 sites visited, Reviewers did not follow the required policy of selecting the next available
completed tax return (i.e., the tax return completed and ready for taxpayer signature). The
Reviewers did not select tax returns randomly, but selected them based on various other reasons
that introduced bias or preference. They also arbitrarily excluded some tax returns from possible
selection. This increases the risk that the overall QSS Review results may not be reliable. For
example: 11
       •   Three QSS Reviewers became involved in helping the site with the preparation of tax
           returns. Two of the Reviewers acknowledged that the tax returns in question would be
           excluded from the review process.
       •   One QSS Reviewer declined to review completed tax returns that were not quality
           reviewed by the site quality reviewer. The QSS Reviewer stated that only quality
           reviewed tax returns were appropriate for QSS Review. Taxpayers left the site with tax
           returns that were not quality reviewed by the site quality reviewer or the QSS Reviewer.
       •   One QSS Reviewer selected a ****************1*****************************
           ***********************.
       •   One QSS Reviewer overlooked that there were two designated site quality reviewers and
           reviewed tax returns from only one of the site reviewers.
       •   One QSS Reviewer relied on the site coordinator to communicate with the taxpayer.
       •   A volunteer discouraged taxpayers from participating in the review process and the
           QSS Reviewer accommodated the volunteer and **********1******************.
QSS Reviewers did not always verify taxpayer information was validated
At 10 of 11 sites, the QSS Reviewers either did not verify or only sporadically verified taxpayer
names and Social Security Numbers. However, the QSS Reviewers recorded that the names and
Social Security Numbers were validated using proper documentation. When names and
Social Security Numbers are not verified, the accuracy of the tax return cannot be effectively
determined. An incorrectly spelled name or transposed Social Security Number results in an
inaccurate tax return. Mismatch of name and Social Security Number information is one of the
top reasons for delays in processing electronic tax returns.




11
     Multiple examples may apply to the same site.
                                                                                            Page 14
                           Improvements to the Volunteer Program
                   Are Producing Positive Results, but Further Improvements
                         Are Needed to the Quality Assurance Process



A QSS Review requires inspection of a completed copy of the tax return with source documents
attached, including Forms W-2, receipts, etc., and a completed Form 13614-C. The Reviewer
should not begin the review until all necessary documents are in hand.
Although managers accompany QSS Reviewers on at least one site visit during the filing season,
the oversight checklist used by the managers to guide and record their assessment of the
QSS Reviewer’s performance does not cover the selection of tax returns or the adequacy of
documentation supporting the review. This represents a lost opportunity to reinforce the need to
adhere strictly to selection and documentation standards. An incorrect assessment of the
Volunteer Program quality of service may cause the IRS to misdirect its resources and efforts
aimed at identifying volunteer tax preparation process deficiencies. In addition, the IRS may
report incorrect accuracy rates.

Post Reviewers considered tax returns to be correct although they did not have
sufficient information to make that determination
Of the 745 total tax return reviews completed, 184 were subject to Post Review. A randomly
selected sample of 41 of the Post Reviews identified 9 (22 percent) that were inaccurate but were
counted as being correct for purposes of calculating the overall accuracy rate. Errors were
generally caused by insufficient information to make a decision on whether the tax return was
completed accurately. Missing information included documentation needed to validate the
accuracy of the standard deduction, charitable contributions, or income amounts reported.
Post Reviewers relied on assumptions about taxpayers to complete the accuracy assessment. For
example, when the file did not contain information on whether a taxpayer had a pension or a
mortgage, Reviewers assumed that the taxpayer was too young for a pension or too old to have a
mortgage. In addition, a Reviewer accepted a tax return as accurate because the error in income
was considered insignificant. This is contrary to SPEC function guidelines and undermines the
credibility of the accuracy measure.
A tax return review should be based on a properly completed Form 13614-C. Guidelines require
that QSS Reviewers provide explanations and/or clarifications of all discrepancies between tax
return entries and supporting documentation, including the Form 13614-C. The explanations
and/or clarifications should be recorded on the Form 13614-C or the Form 6729-R. Tax returns
are to be considered inaccurately prepared if the file received from the QSS Reviewers lacks
sufficient information for an effective independent validation of the tax return accuracy. Post
Review training should emphasize the importance of ensuring documentation is sufficient to
determine the accuracy of the tax returns.

Recommendation
Recommendation 4: The Commissioner, Wage and Investment Division, should revise the
managerial checksheet used for the QSS Reviews to include a focus on tax return selection and

                                                                                         Page 15
                          Improvements to the Volunteer Program
                  Are Producing Positive Results, but Further Improvements
                        Are Needed to the Quality Assurance Process



documentation standards. This would help ensure tax returns are selected randomly and all
decisions and facts used to prepare tax returns are documented.
       Management’s Response: The IRS agreed with this recommendation and will
       revise the managerial checksheet used for the QSS Reviews to include a focus on tax
       return selection and documentation standards.




                                                                                       Page 16
                           Improvements to the Volunteer Program
                   Are Producing Positive Results, but Further Improvements
                         Are Needed to the Quality Assurance Process



                                                                                   Appendix I

        Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether taxpayers receive quality service, including the
accurate preparation of their income tax returns, when visiting IRS Volunteer Program tax
preparation sites. Data included in various figures were provided for perspective only and were
not validated. To accomplish the objective, we:
I.     Determined if the Volunteer Program sites were accurately preparing individual income
       tax returns based on facts provided by the taxpayers. We selected a judgmental sample of
       39 VITA/Co-Located VITA and TCE-AARP sites nationwide and attempted to have a
       tax return prepared. Three sites were selected in each of the cities.
       Site selections were based on the volume of tax returns prepared at the sites, auditor
       resources, and the sites’ proximity to major cities. Because the population of Volunteer
       Program sites is not fixed, a statistical sample could not be used. The total population of
       Volunteer Program sites could not be determined.
II.    Assessed the effectiveness of the process the IRS followed to evaluate and monitor the
       overall accuracy of tax returns prepared at Volunteer Program sites.
       A. Observed 11 QSS Reviewers during the tax return review process to determine
          whether policies and procedures were followed. The 11 sites selected were based on
          the SPEC function’s review schedule and the auditor’s availability.
       B. Selected a random sample of 41 Post Reviews to assess for completeness and
          accuracy. The sample was selected from a population of 205 tax returns. A
          confidence interval of 90 percent, a precision level of ±5 percent, and an expected
          error rate of 5 percent was used.
       C. Assessed the SPEC function’s plan for providing reasonable assurance that willful
          and improper acts do not occur at Volunteer Program sites.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the SPEC function’s policies, procedures,
and practices for preparing tax returns. We evaluated controls by interviewing management and
reviewing policies and procedures. We conducted tests at Volunteer Program sites.

                                                                                           Page 17
                          Improvements to the Volunteer Program
                  Are Producing Positive Results, but Further Improvements
                        Are Needed to the Quality Assurance Process



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Augusta R. Cook, Director
Lena Dietles, Audit Manager
Robert Howes, Lead Auditor
Jean Bell, Senior Auditor
Pamela DeSimone, Senior Auditor
Roberta Fuller, Senior Auditor
Tracy Harper, Senior Auditor
Kathy Coote, Auditor
Jerry Douglas, Auditor
Nelva Usher, Auditor




                                                                                    Page 18
                         Improvements to the Volunteer Program
                 Are Producing Positive Results, but Further Improvements
                       Are Needed to the Quality Assurance Process



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Senior Operations Advisor, Wage and Investment Division SE:W:S
Director, Stakeholder Partnership, Education, and Communications, Wage and Investment
Division SE:W:CAR:SPEC
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PRA:PEI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PRA:PEI




                                                                                  Page 19
                                 Improvements to the Volunteer Program
                         Are Producing Positive Results, but Further Improvements
                               Are Needed to the Quality Assurance Process



                                                                                  Appendix IV

                                        Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•      Cost Savings – Funds Put to Better Use – Potential; $619,767 spent on paper reference
       materials used by volunteers; $3,098,835 projected over 5 years (see page 9).

Methodology Used to Measure the Reported Benefit:
The cost of hard copy reference material was provided by the IRS. 1 From the data provided, we
determined that the IRS spent $111,980 for printing and shipping cost for Your Federal Income
Tax for Individuals (Publication 17) and $507,787 for printing and shipping cost for Volunteer
Resource Guide (Publication 4012), totaling $619,767 for Calendar Year 2009. Projected over
5 years, the IRS will spend $3,098,835.




1
    We did not validate the accuracy of cost data provided by the IRS.
                                                                                           Page 20
        Improvements to the Volunteer Program
Are Producing Positive Results, but Further Improvements
      Are Needed to the Quality Assurance Process



                                               Appendix V

    Cities and States Visited
 to Have Tax Returns Prepared

     Tucson, Arizona
     Los Angeles, California
     Jacksonville, Florida
     Atlanta, Georgia
     Chicago, Illinois
     Fall River, Charlestown, Roxbury,
     Massachusetts
     Detroit, Michigan
     Saint Paul, Minnesota
     Brooklyn, New York
     Winston-Salem, North Carolina
     Cleveland, Elyria, Lakewood, Ohio
     Pittsburgh, Pennsylvania
     Houston, Texas




                                                     Page 21
        Improvements to the Volunteer Program
Are Producing Positive Results, but Further Improvements
      Are Needed to the Quality Assurance Process



                                              Appendix VI

     Cities and States Visited
      to Observe Reviewers

     Phoenix, Arizona
     Bakersfield, California
     Fort Myers, Florida
     Darien, Illinois
     Baltimore, Maryland
     Wakefield, Massachusetts
     Ocean Springs, Mississippi
     New York City, New York
     Rocky Mount, North Carolina
     Bartlesville, Oklahoma
     Midlothian, Virginia




                                                     Page 22
                               Improvements to the Volunteer Program
                       Are Producing Positive Results, but Further Improvements
                             Are Needed to the Quality Assurance Process



                                                                                            Appendix VII

          General Characteristics of Tax Year 2008 Tax
           Returns Prepared by the Volunteer Program1

                                                                         Tax Return       Percentage
               Type of Tax Return                                         Volume           of Total

          U.S. Individual Income Tax Return (Form 1040)                    2,410,442              93.73%
          U.S. Individual Income Tax Return (Form 1040A)                      91,506              3.56%
          Income Tax Return for Single and Joint Filers With No
                                                                              60,576              2.36%
          Dependents (Form 1040EZ)
          U.S. Income Tax Return for Certain Nonresident Aliens
                                                                                8,025             0.31%
          With No Dependents (Form 1040NR-EZ)
          U.S. Individual Income Tax Return (PC) (Form 1040PC)                    594             0.02%
          U.S. Nonresident Alien Income Tax Return
                                                                                  270             0.01%
          (Form 1040NR)
          U.S. Self-Employment Tax Return – Virgin Islands, Guam,
                                                                                  223             0.009%
          American Samoa (Form 1040-SS)

          U.S. Self-Employment Tax Return – Puerto Rico
                                                                                  185             0.007%
          (Form 1040-PR)

          Totals                                                           2,571,821          100.01% 2

        Source: IRS management information system containing all Tax Year 2008 tax return data.

         Refund Due/                   Dollar              Tax Return           Percentage of
         Balance Due                   Totals               Volume            Tax Return Volume

         Refund Due                  $2,622,909,519          1,930,807                              75%
         Balance Due                   $334,613,066            367,793                              14%
         Breakeven                                 $0          273,221                              11%
         Totals                      $2,957,522,585          2,571,821                             100%
        Source: IRS management information system containing all Tax Year 2008 tax return data.


1
    The IRS Volunteer Program includes the VITA and TCE Programs.
2
    Total does not equal 100 percent due to rounding.
                                                                                                       Page 23
                          Improvements to the Volunteer Program
                  Are Producing Positive Results, but Further Improvements
                        Are Needed to the Quality Assurance Process



                                                                           Appendix VIII

  Treasury Inspector General for Tax Administration
      Audit Reports on the Volunteer Tax Return
                Preparation Program

Improvements Are Needed to Ensure Tax Returns Are Prepared Correctly at Internal Revenue
Service Volunteer Income Tax Assistance Sites (Reference Number 2004-40-154, dated
August 31, 2004).
Significant Improvements Have Been Made in the Oversight of the Volunteer Income Tax
Assistance Program, but Continued Effort Is Needed to Ensure the Accuracy of Services
Provided (Reference Number 2006-40-004, dated November 4, 2005).
Oversight and Accuracy of Tax Returns Continue to Be Problems for the Volunteer Income Tax
Assistance Program (Reference Number 2006-40-125, dated August 31, 2006).
Accuracy of Volunteer Tax Returns Is Improving, but Procedures Are Often Not Followed
(Reference Number 2007-40-137, dated August 29, 2007).
Accuracy of Volunteer Tax Returns Continues to Improve, but Better Controls Are Needed to
Ensure Consistent Application of Procedures and Processes (Reference Number 2008-40-177,
dated September 18, 2008).
Ensuring the Quality Assurance Processes Are Consistently Followed Remains a Significant
Challenge for the Volunteer Program (Reference Number 2009-40-128, dated
September 15, 2009).




                                                                                        Page 24
             Improvements to the Volunteer Program
     Are Producing Positive Results, but Further Improvements
           Are Needed to the Quality Assurance Process



                                                   Appendix IX

Management’s Response to the Draft Report




                                                          Page 25
        Improvements to the Volunteer Program
Are Producing Positive Results, but Further Improvements
      Are Needed to the Quality Assurance Process




                                                     Page 26
        Improvements to the Volunteer Program
Are Producing Positive Results, but Further Improvements
      Are Needed to the Quality Assurance Process




                                                     Page 27
        Improvements to the Volunteer Program
Are Producing Positive Results, but Further Improvements
      Are Needed to the Quality Assurance Process




                                                     Page 28
        Improvements to the Volunteer Program
Are Producing Positive Results, but Further Improvements
      Are Needed to the Quality Assurance Process




                                                     Page 29
